                                    CIoseout for M98120043
On 30 November 1998, a pro am manager1 informed us of a concern expressed by a
                               gr
reviewe? of a PI'S' proposal. In the proposal, the PI described a plan to study evolutionary
relationships in birds relied on examining fossil specimens available in a museum in a
foreign countr~.~  The reviewer expressed strong concern that one of these specimens may
have been illegally exported from a foreign country6neighboring that in which the museum
is located. The program officer noted that a recent article in a professionaljournal7 cliscussed
the smuggling of fossils from the neighboring country into the country housing the museum.

We discussed with the program dfficer the implications of the use of illegally obtained
specimens, the likelihood that this was being proposed in this case, and the role of program
and awardee management, and PI responsibility. We decided that in the context this issue
was raised (as a supposition about proposed work), the matter did not warrant further review
by our office. It would be appropriate for the program manager to raise such issues in the
context of the Grant General Conditions (GC-I) if the proposal were funded. Article 38 of
the GC-18, states:

       The awardee should assure that award activities carried on outside
       the U.S. are coordinated as necessary with ,appropriateGovernment
       authorities and that appropriate licenses, permits or approvals are
       obtained prior to undertaking proposed activities. NSF does not
       assume responsibility for awardee compliance with the laws and
       regulations of the country in which the work is to be conducted.

This inquiry is closed and no further action will be taken in this case.

Cc: Integrity, IG



                                                          rogram in the Division of




            -   .   .---
i s m e n s mavailable in.
